      Department of Homeland Security




            Office of Intelligence and Analysis’ 

      Management Letter for FY 2012 DHS Consolidated 

                Financial Statements Audit 





OIG-13-76                                        April 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                      APR 10 2013

MEMORANDUM FOR:              Christopher Button
                             Chief of Staff
                             Office of Intelligence and Analysis

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     Office of Intelligence and Analysis’ Management Letter for
                             FY 2012 DHS Consolidated Financial Statements Audit

Attached for your information is our final report, Office of Intelligence and Analysis’
Management Letter for FY 2012 DHS Consolidated Financial Statements Audit. This
report contains observations related to internal control deficiencies that were not
required to be reported in the Independent Auditors’ Report on DHS’ FY 2012 Financial
Statements and Internal Control over Financial Reporting. Internal control deficiencies
that are considered significant deficiencies were reported, as required, in the
Independent Auditors’ Report, dated November 14, 2012, which was included in the DHS
FY 2012 Annual Financial Report. We do not require management’s response to the
recommendations.

The independent public accounting firm KPMG LLP conducted the audit of DHS’
FY 2012 financial statements and is responsible for the attached management letter
dated March 12, 2013, and conclusions expressed in it. We do not express opinions on
DHS’ financial statements or internal control, nor do we provide conclusions on
compliance with laws and regulations.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006

March 12, 2013


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer,
U.S. Department of Homeland Security Intelligence & Analysis and Operations
Washington, DC

Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or Department) as
of September 30, 2012 and the related statements of net cost, changes in net position and custodial activity,
and combined statement of budgetary resources for the year then ended (referred to herein as the “fiscal
year (FY) 2012 financial statements”). The objective of our audit was to express an opinion on the fair
presentation of these financial statements. We were also engaged to examine the Department’s internal
control over financial reporting of the FY 2012 financial statements, based on the criteria established in
Office of Management and Budget (OMB), Circular No. A-123, Management’s Responsibility for Internal
Control, Appendix A.

Our Independent Auditors’ Report, issued on November 14, 2012, describes a limitation on the scope of
our audit that prevented us from performing all procedures necessary to express an unqualified opinion on
the DHS’ FY 2012 financial statements and internal control over financial reporting. In addition, the FY
2012 DHS Secretary’s Assurance Statement states that the Department was able to provide qualified
assurance that internal control over financial reporting was operating effectively at September 30, 2012.
We have not considered internal control since the date of our Independent Auditors’ Report.

In accordance with Government Auditing Standards, our Independent Auditors’ Report, referred to in the
paragraph above, included internal control deficiencies identified during our audit, that individually, or in
aggregate, represented a material weakness or a significant deficiency.

The Intelligence & Analysis (I&A) and Operations (OPS) (I&A/OPS) is a component of DHS. We noted
certain matters, related to I&A/OPS, that are summarized in the Table of Financial Management Comments
on the following pages, involving internal control and other operational matters that are less severe than a
material weakness or a significant deficiency, and consequently are reported separately to the Office of
Inspector General (OIG) and I&A/OPS management in this letter. These comments and recommendations,
all of which have been discussed with the appropriate members of management, are intended to improve
internal control or result in other operating efficiencies. The disposition of each internal control deficiency
identified during our FY 2012 audit – as either reported in our Independent Auditors’ Report, or herein – is
presented in Appendix A.

We would be pleased to discuss these comments and recommendations with you at any time. This report is
intended for the information and use of the DHS’ and I&A/OPS’s management, the DHS OIG, the U.S.
OMB, the U.S. Congress, and the Government Accountability Office, and is not intended to be and should
not be used by anyone other than these specified parties.

Very truly yours,




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                               Intelligence & Analysis and Operations
                              Table of Financial Management Comments
                                         September 30, 2012

TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)


 Comment
 Reference   Subject                                                                      Page

FMC 12-01    Undelivered Order (UDO) Validity                                              2
FMC 12-02    Deficiencies in the Payroll Process                                           3


APPENDIX

 Appendix    Subject                                                                      Page

    A        Crosswalk – Financial Management Comments to Active Notices of Finding and    4
             Recommendation (NFRs)




                                                   1

                              Intelligence & Analysis and Operations
                                 Financial Management Comments
                                        September 30, 2012


FMC 12-01 – Undelivered Order (UDO) Validity (NFR No. I&A/OPS 12-01)

      We selected a statistical sample of 17 items from the population of UDOs as of October 1, 2011.
      Based on our review of these items, we noted that for 5 of the 17 UDOs tested, the
      contract/agreement period of performance (POP) had ended and the contract/agreement was no
      longer valid; however, the unused balances for these items were not properly de-obligated.
      Additionally, we noted that for 1 of the 17 UDOs tested, the amount of the original obligation
      recorded was less than the supporting documentation, resulting in an understatement of the UDO
      balance.

      We selected a statistical sample of 12 items from the population of UDOs as of August 31, 2012.
      Based on our review of these items, we noted that for 4 of 12 UDOs tested, the
      contract/agreement POP had ended and the contract/agreement was no longer valid; however, the
      unused balances were not properly de-obligated.

      As a result of the August 31, 2012 errors, we performed testwork over UDOs as of September 30,
      2012. We obtained the population of UDOs as of September 30, 2012, and based on the noted
      general ledger (GL) date, separated the population into stale (no fiscal year (FY) 2012 activity)
      and non-stale (with FY 2012 activity) UDOs. We removed the errors identified in our beginning
      balance testwork and August 31, 2012 testwork, and selected a statistical sample of 28 items.
      Based on our review of these items, we noted that for 12 of 28 UDOs tested, the
      contract/agreement POP had ended and the contract/agreement was no longer valid; however, the
      unused balances were not properly de-obligated.

      As a result of the September 30, 2012 errors, we removed all items selected in our September 30,
      2012 sample from the population of stale UDOs and provided this to I&A/OPS to clean-up for re­
      testing. I&A/OPS reviewed the population and determined which UDOs they considered valid
      and which were invalid. We selected a statistical sample of 3 items from the population of stale
      UDOs I&A considers valid and a statistical sample of 3 items from the population of stale UDOs
      OPS considers valid. Based on our review of these items, we noted for 2 of the 3 UDOs tested
      for I&A, the contract/agreement POP had ended and the contract/agreement was no longer valid;
      however, the unused balances were not properly de-obligated. We noted all 3 UDOs tested for
      OPS were valid.

      Recommendations:
      We recommend that I&A/OPS:
      •	 Work with Federal Law Enforcement Training Center (FLETC) and the Office of
         Procurement Operations to ensure that an adequate review of obligated balances is performed
         and that unused balances are properly de-obligated.
      •	 Work with FLETC and Office of Procurement Operations to enhance the existing system of
         monitoring contracts with periods of performance that are set to expire.




                                                  2

                               Intelligence & Analysis and Operations
                                  Financial Management Comments
                                         September 30, 2012


FMC 12-02 – Deficiencies in the Payroll Process (NFR No. I&A/OPS 12-03)

       During our payroll testwork, we identified three employees for which the I&A/OPS’s servicing
       human capital office, the DHS Office of Human Capital Officer, was unable to find the adequate
       documentation (Federal Employees’ Group Life Insurance (FEGLI) and Federal Employees’
       Health Benefits (FEHB) election forms) and in two of those instances we were unable to re­
       calculate their benefit contribution amounts.

       Recommendation:
       We recommend that I&A/OPS coordinate with Office of Human Capital Officer, in maintaining
       documentation for each employee in order to be able to obtain the documentation upon request
       and to verify changes made to FEGLI and FEHB elections are properly documented and agreed
       to the employee’s Standard Form (SF)-50.




                                                  3

                                                                                                             Appendix A
                                    Intelligence & Analysis and Operations
                         Crosswalk – Financial Management Comments to Active NFRs
                                              September 30, 2012


                                                                                                  Disposition1
                                                                                                 IAR                 FMC
NFR No.       Description                                                               MW        SD        NC        No.
12-01         Undelivered Order (UDO) Validity                                                                       12-01
12-02         Potential Anti-deficiency Act (ADA) Violation                                                  L
12-03         Deficiencies in the Payroll Process                                                                    12-02

1
 Disposition Legend:
IAR       Independent Auditors’ Report dated November 14, 2012
FMC       Financial Management Comment
MW        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                              4

                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix B
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Intelligence and Analysis

   Acting Under Secretary
   Chief of Staff
   Liaison

   Federal Law Enforcement Training Center

   Assistant Director/Chief Financial Officer
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �



www.oig.dhs.gov                                                            OIG-13-76

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
